August 2005
Report No. 05-028


DRR’s Pre-Closing Planning Process




             AUDIT REPORT
                                                                                          Report No. 05-028
                                                                                               August 2005

                                        DRR’s Pre-Closing Planning Process
                                        Results of Audit
                                        Overall, we found that DRR’s pre-closing planning process is adequate. The
Background and                          duties and responsibilities of the resolution process are clearly described in
Purpose of Audit                        manuals, checklists, job aids, and flow charts with associated time tables. In
                                        addition, the FDIC has established formal procedures and an interagency
                                        agreement for the collection and sharing of information between DRR and the
The FDIC is charged with the            Division of Supervision and Consumer Protection (DSC) and other federal
resolution of failing FDIC-             regulators. Further, our review of DRR’s pre-closing planning efforts for three
insured depository institutions.
                                        financial institutions—one failure and two near-failures with assets of about
Specifically, when a financial
institution is failing, the FDIC has
                                        $166 million—showed that DRR completed key tasks and conducted the
a responsibility to the institution’s   resolution in a timely and efficient manner. Further, DRR management reports
depositors, creditors, and              indicated that resolution problems were identified, discussed, and addressed.
shareholders to plan for and            Finally, we noted evidence of adequate communication, coordination, and
liquidate the institution’s assets      cooperation between DRR and other federal and state regulators during the pre-
and liabilities in the least costly     closing process.
manner possible. The resolution
process involves valuing the            Formal Procedures and Agreements for Communication and Coordination
institution, marketing it, soliciting
and accepting bids for the sale of
                                        The FDIC has established formal procedures for the collection and sharing of
the institution, determining which
bid is least costly to the insurance
                                        information between DRR and DSC for institutions that appear likely to fail.
fund, and working with the              The procedures call for DSC to seek the failing institution's consent to allow
acquiring institution(s) through        DRR access to the institution and its records to facilitate the resolution process.
the closing process (or ensuring        In addition, an interagency agreement between the FDIC and the other primary
the payment of insured deposits         federal regulators (the Office of the Comptroller of the Currency, the Office of
in the event there is no acquirer).     Thrift Supervision, and the Federal Reserve Board) also deals with FDIC access
The FDIC is also responsible for        to institution-related information.
managing, marketing, and selling
those assets that are not sold to an    DRR Pre-Closing Planning Process for Three Institutions
acquiring institution before bank
closure and are, therefore, placed
into an FDIC receivership.
                                        For the three institutions in our sample, DRR adequately planned for the
                                        closings by successfully: (1) conducting on-site visits to the failing institution,
The objective of the audit was to       (2) performing the required Asset Valuation Reviews for use in making a least-
determine the adequacy of the           cost determination, (3) preparing the necessary Information Packages for
Division of Resolutions and             prospective bidders, and (4) marketing the failing institution and individual
Receiverships’ (DRR) pre-               institution assets. Further, our review of DRR’s files and management reports
closing planning process. The           showed that DRR had timely and appropriate access to the three failing
scope of our audit included all         institutions.
near and actual financial
institution failures from
January 1, 2003 through                 Recommendations
December 31, 2004, for which
DRR expended time and                   We made no recommendations in this report. However, we did include a matter
resources. During this 2-year           for future DRR consideration. Specifically, DRR is in the midst of a significant
period, DRR expended resources          staff reduction and realignment as well as a transition to a new business model
monitoring 38 institutions of           focused on a smaller, more specialized workforce. Therefore, DRR may need to
which 7 institutions actually           reconsider the existing internal control structure that we reviewed during this
failed and were placed into             audit in light of the substantive changes in its operations.
receivership.
To view the full report, go to
www.fdicig.gov/2005reports.asp
Federal Deposit Insurance Corporation                                                                   Office of Audits
801 17th Street NW, Washington, DC 20434                                                   Office of Inspector General




DATE:                                  August 8, 2005

MEMORANDUM TO:                         Mitchell L. Glassman, Director
                                       Division of Resolutions and Receiverships



FROM:                                  Russell A. Rau [Original signed by Stephen M. Beard for Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               DRR’s Pre-Closing Planning Process
                                       (Report No. 05-028)

This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of the Division of Resolutions and Receiverships’ (DRR) pre-
closing planning process for resolving troubled and failed FDIC-insured financial depository
institutions. The resolution process encompasses various activities covering three separate but
related phases: (1) pre-closing, (2) closing, and (3) post-closing. This audit focused on DRR
activities in the pre-closing phase.

The objective of the audit was to determine the adequacy of DRR’s pre-closing planning process.
The scope of our audit included all near1 and actual bank failures from January 1, 2003 through
December 31, 2004 for which DRR expended time and resources. During this 2-year period,
DRR monitored 38 institutions, with assets totaling about $24 billion, of which 7 institutions,
with assets of $1.4 billion, actually failed and were placed into receivership. Additional details
on our objective, scope, and methodology are in Appendix I.

During the survey phase of the audit, we gained an understanding of internal controls, reviewed
pertinent policies and procedures, interviewed cognizant DRR officials, and reviewed 3 of the 38
near and actual failures for the 2-year period of review. Based on our survey work, we found
that DRR had a structured and efficient bank resolution process and concluded that, overall,
DRR’s pre-closing planning process was adequate. Accordingly, we decided to conclude our
field work after completion of the audit survey, and we make no recommendations in this report.


BACKGROUND

The FDIC is charged with the resolution of failing FDIC-insured depository institutions.
Specifically, when a financial institution is failing, the FDIC has a responsibility to the
institution’s depositors, creditors, and shareholders to plan for and liquidate the institution’s

1
 The resolution process includes banks that eventually fail and problem banks that require DRR monitoring but do
not fail. These latter problem banks are referred to as “near-failures.”
assets and liabilities in the least costly manner possible. The resolution process involves valuing
the institution, marketing it, soliciting and accepting bids for the sale of the institution,
determining a least-cost strategy, and working with the acquiring institution(s) through the
closing process (or ensuring the payment of insured deposits in the event there is no acquirer).
The FDIC is also responsible for managing, marketing, and selling those assets that are not sold
to an acquiring institution before bank closure and are, therefore, placed into an FDIC
receivership.

The FDIC’s DRR is responsible for planning and efficiently handling the resolution of failing
FDIC-insured institutions and for providing prompt, responsive, and efficient administration of
failing and failed FDIC-insured institutions in order to maintain confidence and stability in the
nation’s financial system. DRR’s Franchise and Asset Marketing Branch is responsible for
resolving troubled financial institutions by selling or liquidating the institution’s assets in a
manner that results in the least cost and highest recovery to the deposit insurance funds and other
creditors of the failed institutions. Within the Franchise and Asset Marketing Branch, the
Franchise Marketing Section is responsible for managing the sale of the failing institution
franchise, and the Asset Marketing Section is responsible for the sale of individual institution
assets.

DRR’s actions are governed by the Federal Deposit Insurance (FDI) Act, the FDIC’s
implementing regulations, and DRR’s procedures. For example, under DRR’s procedures, a
typical resolution due to a financial institution’s capital insolvency will extend for a period of
90 days or less. The 90-day time frame is partially due to the Prompt Corrective Action (PCA)
provisions of the FDI Act. These provisions require, in general, that the appropriate federal
banking agency, or the FDIC, either close an institution within 90 days after determining that the
institution is “critically undercapitalized” or take other appropriate action. According to Part 325
of the FDIC Rules and Regulations and consistent with the Act, a critically undercapitalized
institution is one that has a tangible equity-to-average-total-assets ratio of 2 percent or less. The
FDI Act also requires that when the FDIC, as conservator or receiver, sells or disposes of
property, it shall do so in a manner that, among other things, maximizes net present value return
and minimizes losses of such resolutions and ensures adequate competition and fair treatment of
offerors.

From DRR’s perspective, the resolution process generally begins when DRR becomes aware of
the primary regulator’s written or oral notification to an institution that it is critically
undercapitalized or that some non-viability exists such as an unsafe and/or unsound practice.
DRR then has up to the 90-day PCA limit to collect information from the failing institution and
plan for and execute the resolution. In some cases, the condition of a failing institution may
necessitate an expedited closure. For example, if fraudulent activities have occurred, DRR may
need to initiate immediate closing activities.

Primary guidance for the resolution process is in DRR’s Resolutions Policy Manual. Key
resolution responsibilities include:

   •   planning and preparing for the resolution process;


                                                 2
    •    preparing the Information Package provided to potential bidders, which describes the
         assets and liabilities held by the failing institution;
    •    conducting the Asset Valuation Review, which establishes an estimated value of the
         institution’s assets;
    •    marketing the failing institution and soliciting bids; and
    •    selecting the successful bidder.

Based on these efforts, DRR is required to make a formal recommendation to the FDIC Board of
Directors concerning the least costly resolution strategy to pursue upon the date of bank failure.
The recommendation is documented in a Failing Bank Case presented to the FDIC Board.

Additional pre-closing guidance is contained in DRR’s Failed Financial Institution Closing
Manual (Closing Manual), which describes procedures for conducting the closing of an FDIC-
insured financial institution at resolution and contains sections on pre-closing planning activities for
various DRR functions such as Asset Claims, Asset Management, and Investigations. Appendix II
contains a more detailed description of the pre-closing resolution planning process and the key
events leading to a potential bank closing.


RESULTS OF AUDIT

Overall, we found that DRR’s pre-closing planning process is adequate. The duties and
responsibilities of the resolution process are clearly described in manuals, checklists, job aids,
and flow charts with associated time tables. In addition, the FDIC has established formal
procedures and an interagency agreement for the collection and sharing of information between
DRR and the Division of Supervision and Consumer Protection (DSC)2 and other federal
regulators. Further, our review of DRR’s pre-closing planning efforts for three financial
institutions—one failure and two near-failures—showed that DRR completed key tasks and
conducted the resolution in a timely and efficient manner. The three institutions had assets
totaling about $166 million. Further, DRR management reports indicated that resolution
problems were identified, discussed, and addressed. Finally, we noted evidence of adequate
communication, coordination, and cooperation between DRR and other federal and state bank
regulators during the pre-closing process.

Formal Procedures and Agreements for Communication and Coordination

The FDIC has established formal procedures for the collection and sharing of information
between DRR and DSC for institutions that appear likely to fail. The procedures call for DSC to
seek the failing institution's consent to allow DRR access to the institution and its records to
facilitate the resolution process. In addition, an interagency agreement between the FDIC and


2
 DSC is responsible for examining and supervising insured financial institutions to ensure they operate in a safe and
sound manner.




                                                         3
the other primary federal regulators (the Office of the Comptroller of the Currency, the Office of
Thrift Supervision, and the Federal Reserve Board) also deals with FDIC access to institution-
related information. The interagency agreement addresses a variety of issues, including
information sharing among the financial institution regulatory agencies, FDIC participation in
the examination of financial institutions that present a heightened risk to the deposit insurance
funds, and FDIC involvement in the supervision of certain large insured depository institutions.

DRR Pre-Closing Planning Process for Three Institutions

For the three institutions in our sample, DRR’s Franchise and Asset Marketing Branch
adequately planned for the closings by successfully: (1) conducting on-site visits of the failing
institution, (2) performing the required Asset Valuation Reviews for use in making a least-cost
determination, (3) preparing the necessary Information Packages for prospective bidders, and
(4) marketing the failing institution and institution assets. Further, our review of DRR’s files and
management reports showed that DRR had timely and appropriate access to the three failing
institutions.

A summary of the pre-closing work DRR performed for the three institutions follows. Two of
the institutions we reviewed did not close. We are not referring to any of the institutions by
name.

Institution A (Near-Failure)

For Institution A, DRR began receiving significant information about the bank’s condition and
planning for a possible closing even before the primary regulator formally delivered the PCA
notice to the bank. Within a week of the PCA notice, DRR began receiving bank financial
information and soon afterwards, began soliciting qualified bidders through IntraLinks3 and
prospective buyers began performing due diligence. While DRR was actively marketing the
bank and working towards placing it into receivership, the bank owners found a buyer and sold
the bank. Overall, the sale took place less than 3 months after the PCA notification was given,
falling within the 90-day PCA guideline.

Institution B (Near-Failure)

The decision to close Institution B was dependent on a determination by a federal agency as to
whether certain loan guarantees would be honored. DRR’s planning for the possible closing of
the bank proceeded in response to information provided by DSC and the state regulator. DSC
first notified DRR that the bank was at risk of failing almost 7 months before official PCA notice
was given. Within a month after the PCA notification, DRR began work on the required Asset
Valuation Review and Information Package (AVR/IP). Then, several months later (while the
federal agency was deciding on the loan guarantee issue), DRR was again notified that the bank
3
  IntraLinks is a private Internet-based company DRR engaged to assist in the marketing of failing institutions. The
purpose of establishing a secure Web site is to provide information in an expeditious manner on failing financial
institutions to potential acquirers on the resolution process. IntraLinks is also used to describe and market the types
of transactions that are being offered for a failing institution.


                                                           4
might be closed and began updating its AVR/IP. DRR provided updated information about the
bank on IntraLinks for potential bidders. While DRR was planning for, and working towards, a
possible bank closing, the bank found a financing source and was able to recapitalize. Given the
circumstances, DRR’s pre-closing efforts were effective and timely.

Institution C (Failure)

For Institution C, DRR marketed and sold the failed bank 81 days after DSC first notified DRR
that the bank was in danger of failing. For this bank closing, DRR performed key tasks in a
timely manner. Specifically, DRR’s AVR/IP team began its work in the bank about 14 days
after PCA notification and completed its work 25 days later. Further, DRR activated IntraLinks
44 days after DSC first provided the PCA notification, and buyer due diligence began about
57 days after the notification. Overall, DRR’s efforts were timely and led to the successful
closing of the bank within the 90-day PCA guideline.

Matter for Future DRR Consideration

DRR is in the midst of a large workforce restructuring and transition effort. This effort includes
a significant staff reduction and realignment as well as the transition to a new business model
focused on a smaller, more specialized workforce that leads, directs, and serves as an expert
resource for resolution and closing activities for the FDIC. Significantly, the new business
model calls for increased reliance on DSC resources and, as necessary, contractor support.
Therefore, DRR may need to reconsider the existing internal control structure that we reviewed
during this audit in light of the substantive changes in its operations.


CORPORATION COMMENTS AND OIG EVALUATION

A written response was not required for this report. DRR advised the OIG that it had no official
comments.




                                                 5
                                                                                                      APPENDIX I




                            OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine the adequacy of DRR’s pre-closing planning process.
The audit focused on institutions that were failing or closed for reasons other than fraud. The
scope of our audit included all 38 near and actual failures4 from January 1, 2003 through
December 31, 2004, for which DRR had expended resources. The asset size of the 38
institutions ranged from $7 million to $14 billion.

To gain an understanding of the resolution process, we interviewed DRR officials in Franchise
Asset Marketing, Asset Management, Receivership Operations, and Internal Review. Also, we
reviewed the following pertinent policies and procedures and gained an understanding of internal
controls:

•   DRR’s Resolutions Policy Manual;
•   DRR’s Failed Financial Institution Closing Manual;
•   DRR’s Bridge Bank Manual;
•   DRR Senior Management Oversight Committee reports for 2003 and 2004;
•   DRR Management Status Reports for 2003 and 2004;
•   various job aids, file checklists, resolution flow charts, time tables, and lessons-learned
    reports; and
•   Strategic Resolution Plans, Post-Closing Reports, and DRR Failing Bank Reports for the
    Chairman.

To assess the adequacy of DRR’s pre-closing planning, we reviewed documentation supporting
DRR’s resolution efforts for a sample of 3 of the 38 near and actual failures for which DRR had
expended resources during our audit period. Specifically, for the three institutions we sampled,
we determined when (1) DRR received the first PCA notification of a potential pending failure
and thus began the resolution process, (2) DRR began its AVR/IP preparation process, (3) bidder
information was made available on IntraLinks, (4) buyer due diligence began, and (5) the
institution was resolved. Because of the unique circumstances surrounding each institution’s
failure or near failure, we recognize that there can be no specific time requirements for DRR’s
resolution activities. Therefore, we based our conclusion regarding the adequacy of pre-closing
planning on our professional judgment as to whether DRR was able to accomplish these
activities within a reasonable time (using the established 90-day PCA period as a guide).

Computer-based data was not significant to our findings, conclusions, and recommendations.
Specifically, we limited our use of computer-based data to a DRR-provided list of financial
institutions that failed or were near-failures during the period of our review. Although we used
this list as the basis for our sample selection, we considered the risk of potential misinformation
on the list to be low. Nonetheless, we performed a limited reasonableness check of the accuracy
of the information provided by DRR by confirming that the list included the seven institutions
that were known to have failed during the 2-year period.
4
  Of the 38 near and actual failures during our audit period, 7 banks actually failed of which 4 failed due to fraud-
related issues.


                                                           6
                                                                             APPENDIX I




We performed our work at DRR offices in Washington, D.C., and Dallas, Texas, from March
through June 2005 in accordance with generally accepted government auditing standards.




                                            7
                                                                                                     APPENDIX II




                                 PRE-CLOSING PLANNING PROCESS

Once an institution is notified that it is undercapitalized or has unsafe practices, a series of events
occurs (some concurrently), normally within a 90-day period. First, the managers of the
institution undertake an effort to cure the problem(s) identified by the primary regulator. For
example, institution management may attempt to cure the identified deficiency; seek additional
capital; merge with another, more viable institution; self-liquidate; or market the institution to an
outside buyer. Meanwhile, different groups within the FDIC and DRR move forward with
individual, but coordinated, resolution efforts in anticipation that the institution will eventually
fail and be placed into receivership status.

The resolution process involves valuing a failing institution, marketing it, soliciting and
accepting bids for the sale of the institution, determining which bid is least costly to the
insurance funds, and working with the acquiring institution(s) through the closing process.
Alternatively, the process may involve ensuring the payment of insured deposits in the event
there is no acquirer.

DRR’s Franchise and Asset Marketing Branch begins monitoring a troubled institution after
notification by the primary regulator of pending problems. Franchise and Asset Marketing seeks
early access to the institution to identify and value assets, to seek out potential qualified buyers,
and to prepare bid packages in an effort to sell the institution. The resolution process is
facilitated by visitation reports, AVR/IP checklists, task flowcharts and timelines for work
products, retention file checklists, and job aids that outline DRR resolution staff responsibilities,
job roles, and tasks to be performed.

Further, DRR’s Receivership Oversight staff is preparing to close the institution. One of DRR’s
pre-determined closing teams is designated for the problem bank. A Resolutions Coordinator
and/or Receiver-in-Charge is identified as DRR’s coordination focal point. This DRR official is
responsible for preparing a Strategic Resolution Plan (SRP)5 for each failing institution. To
prepare for the actual closing effort in accordance with the guidelines in DRR’s Failed Financial
Institution Closing Manual, DRR planning meetings are held with all pertinent DRR staff. After
an institution is closed, Asset Management manages the sale of the remaining institution assets.




5
 The SRP is a DRR inter-divisional coordination plan, which serves as the catalyst for communicating, planning,
and reporting bank failure activities. Usually within 90 days after the institution’s failure, the SRP will be replaced
by a Receivership Business Plan.

                                                           8
